2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

COCKLE

Legal Briefs

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-166

MICHAEL SCOTT ANGLESEY; ELISEO GUTIERREZ;
VERONICA GUTIERREZ,
Petitioners,
v.
ALLIED PROFESSIONALS INSURANCE COMPANY,
ARISK RETENTION GROUP,
An Arizona Corporation,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE AND AMICUS CURIAE BRIEF OF THE NATIONAL RISK RETENTION ASSOCIATION
IN SUPPORT OF RESPONDENT ALLIED PROFESSIONALS INSURANCE COMPANY, A
RISK RETENTION GROUP in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 5992 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of October, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY State of Nebraska )draw- Ws Chk
RENEE J. GOSS 9 7 *
Notary Public

My Comm. Exp. September ยง, 2023
Affiant

 

40234
